<html>
<title> - SURVEYING THE SPACE WEATHER LANDSCAPE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
                 SURVEYING THE SPACE WEATHER LANDSCAPE

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                     SUBCOMMITTEE ON ENVIRONMENT &
                         SUBCOMMITTEE ON SPACE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             April 26, 2018

                               __________

                           Serial No. 115-56

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

 


       Available via the World Wide Web: http://science.house.gov
       
       
       
       
                             _________ 

                 U.S. GOVERNMENT PUBLISHING OFFICE
                   
30-319 PDF                 WASHINGTON : 2018      
       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  AMI BERA, California
THOMAS MASSIE, Kentucky              ELIZABETH H. ESTY, Connecticut
RANDY K. WEBER, Texas                MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           DONALD S. BEYER, JR., Virginia
BRIAN BABIN, Texas                   JACKY ROSEN, Nevada
BARBARA COMSTOCK, Virginia           CONOR LAMB, Pennsylvania
BARRY LOUDERMILK, Georgia            JERRY McNERNEY, California
RALPH LEE ABRAHAM, Louisiana         ED PERLMUTTER, Colorado
DANIEL WEBSTER, Florida              PAUL TONKO, New York
JIM BANKS, Indiana                   BILL FOSTER, Illinois
ANDY BIGGS, Arizona                  MARK TAKANO, California
ROGER W. MARSHALL, Kansas            COLLEEN HANABUSA, Hawaii
NEAL P. DUNN, Florida                CHARLIE CRIST, Florida
CLAY HIGGINS, Louisiana
RALPH NORMAN, South Carolina
                                 ------                                

                      Subcommittee on Environment

                    HON. ANDY BIGGS, Arizona, Chair
DANA ROHRABACHER, California         SUZANNE BONAMICI, Oregon, Ranking 
BILL POSEY, Florida                      Member
MO BROOKS, Alabama                   COLLEEN HANABUSA, Hawaii
RANDY K. WEBER, Texas                CHARLIE CRIST, Florida
BRIAN BABIN, Texas                   EDDIE BERNICE JOHNSON, Texas
BARRY LOUDERMILK, Georgia
JIM BANKS, Indiana
CLAY HIGGINS, Louisiana
RALPH NORMAN, South Carolina
LAMAR S. SMITH, Texas
                                 ------                                

                         Subcommittee on Space

                     HON. BRIAN BABIN, Texas, Chair
DANA ROHRABACHER, California         AMI BERA, California, Ranking 
FRANK D. LUCAS, Oklahoma                 Member
MO BROOKS, Alabama                   ZOE LOFGREN, California
BILL POSEY, Florida                  DONALD S. BEYER, JR., Virginia
STEPHEN KNIGHT, California           MARC A. VEASEY, Texas
BARBARA COMSTOCK, Virginia           DANIEL LIPINSKI, Illinois
RALPH LEE ABRAHAM, Louisiana         ED PERLMUTTER, Colorado
DANIEL WEBSTER, Florida              CHARLIE CRIST, Florida
JIM BANKS, Indiana                   BILL FOSTER, Illinois
ANDY BIGGS, Arizona                  EDDIE BERNICE JOHNSON, Texas
NEAL P. DUNN, Florida
CLAY HIGGINS, Louisiana
LAMAR S. SMITH, Texas
                            C O N T E N T S

                             April 26, 2018

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Andy Biggs, Chairman, Subcommittee on 
  Environment, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................     4
    Written Statement............................................     6

Statement by Representative Suzanne Bonamic, Ranking Member, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     8
    Written Statement............................................     9

Statement by Representative Brian Babin, Chairman, Subcommittee 
  on Space, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................    10
    Written Statement............................................    12

Statement by Representative Ami Bera, Ranking Member, 
  Subcommittee on Space, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    14
    Written Statement............................................    16

Statement by Representative Lamar Smith, Chairman, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    18
    Written Statement............................................    20

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    22
    Written Statement............................................    24

                               Witnesses:

Dr. Neil Jacobs, Assistant Secretary of Commerce for 
  Environmental Observation and Prediction, National Oceanic and 
  Atmospheric Administration
    Oral Statement...............................................    27
    Written Statement............................................    29

Dr. Jim Spann, Chief Scientist, Heliophysics Division, Science 
  Mission Directorate, National Aeronautics and Space 
  Administration
    Oral Statement...............................................    36
    Written Statement............................................    38

Dr. Sarah Gibson, Senior Scientist, High Altitude Observatory, 
  National Center for Atmospheric Research and Co-Chair, 
  Committee on Solar and Space Physics, National Academy of 
  Science
    Oral Statement...............................................    42
    Written Statement............................................    44

Dr. W. Kent Tobiska, President and Chief Scientist, Space 
  Environment Technologies
    Oral Statement...............................................    58
    Written Statement............................................    60

Discussion.......................................................    78

             Appendix I: Answers to Post-Hearing Questions

Dr. Neil Jacobs, Assistant Secretary of Commerce for 
  Environmental Observation and Prediction, National Oceanic and 
  Atmospheric Administration.....................................   124

Dr. Jim Spann, Chief Scientist, Heliophysics Division, Science 
  Mission Directorate, National Aeronautics and Space 
  Administration.................................................   127

Dr. Sarah Gibson, Senior Scientist, High Altitude Observatory, 
  National Center for Atmospheric Research and Co-Chair, 
  Committee on Solar and Space Physics, National Academy of 
  Science........................................................   129

Dr. W. Kent Tobiska, President and Chief Scientist, Space 
  Environment Technologies.......................................   137


                 SURVEYING THE SPACE WEATHER LANDSCAPE

                              ----------                              


                        THURSDAY, APRIL 26, 2018

                  House of Representatives,
                    Subcommittee on Environment and
                           Subcommittee on Science,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittees met, pursuant to call, at 10:01 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Andy Biggs 
[Chairman of the Subcommittee on Environment] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Biggs. The Subcommittee on Environment and Space 
will come to order. And without objection, the Chair is 
authorized to declare recesses of the Subcommittee at any time.
    Welcome to today's hearing entitled ``Surveying the Space 
Weather Landscape.'' I now recognize myself for five minutes 
for an opening statement.
    And I welcome you again to this important subcommittee 
hearing of the Environment Subommittee and the Space 
Subcommittee as well entitled ``Surveying the Space Weather 
Landscape.'' And first, I thank each Member of this panel here 
today. We have excellent witnesses, and I'm excited to hear 
their testimony on this important topic.
    With an issue as complex and consequential as this one, it 
is important that we begin a dialogue on where we are and where 
we are going. There are many exciting developments in space 
weather, from innovative space weather technologies and the 
accuracy of space weather forecasting models, to the potential 
impacts space weather can have on our terrestrial environment.
    All of these topics are important and worth addressing, but 
I think it's crucial that we first lay the groundwork for 
understanding the current policies, procedures, and major 
players in both the private and public sectors. And I'm pleased 
to have key stakeholders from private industry, as well as 
academia, along with leaders from the National Oceanic and 
Atmospheric Administration (NOAA) and the National Aeronautics 
and Space Administration (NASA) with us today. I look forward 
to hearing from them about not only what their efforts have 
been in this arena, but also what they think the future holds 
for the observation, modeling, and forecasting of space weather 
events.
    Just as it is a primary driver of weather on Earth, the Sun 
is also the largest driver of disturbances in our space 
environment. Solar winds, whose charge and intensity ebbs and 
flows with various solar phenomena, interact with Earth's 
magnetic field in interesting and sometimes highly adverse 
ways. The result of these interactions are what we refer to as 
space weather storms. While often relegated to the 
magnetosphere, these storms can and do have tangible and 
sometimes highly damaging effects in the upper atmosphere and 
at the terrestrial level. These can range from issues with the 
performance and reliability of space-borne and ground-based 
technological systems, all the way to endangering human life or 
health.
    As with terrestrial weather, without thorough monitoring 
and accurate modeling, we simply have no good way to predict 
space weather events and, in turn, no ability to ensure that 
citizens are kept out of harm's way if severe events arise. In 
the federal government, NASA and NOAA are tasked with 
monitoring and issuing forecasts that inform the public. To 
make these forecasts, countless dollars are spent on 
observation and data collection, but despite this, space 
weather science as a discipline is still in its nascent phase.
    While I have no doubt that NASA and NOAA play a vital role 
in monitoring solar phenomena and making space weather 
forecasts, we need to explore whether it makes sense to rely 
solely on government for addressing space weather challenges. 
In the 21st century, the landscape has changed, and as we can 
see from our witnesses today, the federal government isn't the 
only game in town, nor should it be.
    Forecasting space weather depends on understanding the 
fundamental processes that give rise to hazardous events. 
Particularly important is the study of processes that link the 
Sun-Earth system and that control the flow of energy toward our 
planet. Partners in the private sector can and should use their 
advanced, innovative technologies to help us more thoroughly 
understand these phenomena and improve our space weather 
predictions. In the face of space weather challenges, instead 
of continuing to think inside the ``government-only'' box, NASA 
and NOAA need to look to private partners who are ready and 
willing to help.
    Last year, President Trump signed into law the Weather 
Research and Forecasting Innovation Act, a comprehensive bill 
to increase our weather forecasting capabilities to better 
protect lives and property. What I like most about this 
legislation is that it requires personnel within government 
agencies to innovate by partnering with the growing private 
sectors in testing and validating its data in order to enhance 
our nation's forecasting capacity and capabilities. It is my 
hope that, on the subject of space weather, we will continue to 
look to the Weather Research and Forecasting Innovation Act as 
a model.
    Adverse space weather presents unique challenges, and the 
consequences of inaction could be far-reaching and 
catastrophic. However, I believe that through the right 
combination of government monitoring, private industry 
innovation, and good old American determination, we will be 
able to respond to any future challenges that may arise. I look 
forward to learning more today from our excellent panel of 
witnesses about this topic, about their efforts to advance 
understanding in this field, and about the technologies and 
methods that will lead the way to a better and smarter future.
    And with that, I yield back the balance of my time.
    [The prepared statement of Chairman Biggs follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Chairman Biggs. I now recognize the gentleman from Colorado 
sitting in for the Ranking Member of the Environment 
Subcommittee, Mr. Perlmutter, for an opening statement.
    Mr. Perlmutter. Thank you, Mr. Chairman, and I'd also like 
to thank Chairman Smith for convening today's hearing. I'd also 
like to thank each of our witnesses because we have an 
excellent panel to talk to us today about space weather, and 
I'd especially like to thank two of my friends, Colorado 
Buffaloes Dr. Gibson and Dr. Tobiska, for joining us today.
    I've been interested in space weather for a number of 
years. Colorado has some of the best minds, laboratories, and 
research institutions on space weather in the country. We have 
institutions like CU Boulder and the National Center for 
Atmospheric Research, as well as NOAA's Space Weather 
Prediction Center. That is why Senator Cory Gardner from 
Colorado worked with Senator Gary Peters from Michigan to pass 
the Space Weather Research and Forecasting Act in the Senate, 
and it's why I've been encouraging this committee to support 
this legislation and be active on the space weather needs of 
the academic and research community.
    We talk frequently about space weather as a catastrophic 
event, and it can be. A Carrington-level event, which more or 
less shut down electrical grids and communications all over the 
place, or the 2012 event, which shut down Quebec's power grid, 
are worthy of our attention. But what I've learned is that 
space weather is a daily phenomenon which impacts our 
electrical grid, our airlines flying over the poles, precision 
agriculture, and much more.
    It is clear there is significant economic consequence to 
our lack of knowledge and prediction of space weather. That's 
why I've proposed H.R. 3086, the Space Weather Research and 
Forecasting Act. It will build upon the success of the National 
Space Weather Strategy and the National Space Weather Action 
Plan to better incorporate academic, commercial, and 
international partners into our space weather enterprise.
    I look forward to your testimony today and the discussion 
so that we can educate ourselves and work with the academic and 
commercial industries to build on the successes of the last 
several years and remain focused on improving space weather 
research and forecasting.
    [The prepared statement of Mr. Perlmutter follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Perlmutter. And if I might, Mr. Chair, I'd like to 
introduce the newest member of our committee.
    Chairman Biggs. Please.
    Mr. Perlmutter. So I'd like to introduce Conor Lamb. You 
can stand up and take a bow.
    Conor was sworn in on April 12----
    Mr. Lamb. Twirl around, too----
    Mr. Perlmutter. No, no, it's--2018 to represent 
Pennsylvania's 18th Congressional District, which includes 
parts of Allegheny, Westmoreland, Washington, and Greene 
Counties in southwestern Pennsylvania. And I took some time to 
encourage Conor to join this committee because there are places 
where we have--lots of places where we have common ground and 
we work together, we collaborate to advance science. There are 
places where we have spirited disagreements, and so we really 
do welcome you.
    And I should alert my Republican friends that Conor 
previously served as an Assistant U.S. Attorney in the Justice 
Department's Pittsburgh office, where he prosecuted violent 
crimes and drug trafficking and helped establish the office as 
a national leader in the fight against the heroin epidemic. So 
we wanted to bring somebody aboard who also could argue if 
necessary.
    Lamb served on active duty in the United States Marine 
Corps from 2009 to 2013 and continues to serve as a Major in 
the United States Marine Corps Reserves. Conor lives in Mount 
Lebanon, where he grew up. He is a graduate of Pittsburgh 
Central Catholic High School and went to college and law school 
at the University of Pennsylvania. 2006 is when he graduated 
undergrad and 2009 from law school.
    So I'd like to welcome Conor Lamb to the Committee, and I 
know the rest of the Committee will welcome him, too.
    Chairman Biggs. Indeed, welcome, Representative Lamb. Glad 
to have you on the Committee.
    Mr. Lamb. Still learning how these work. Thank you very 
much, Mr. Chairman.
    Chairman Biggs. Thank you.
    Mr. Lamb. You're welcome.
    Chairman Biggs. And now, I recognize the Chairman of the 
Space Subcommittee, the gentleman from Texas, Mr. Babin, for an 
opening statement.
    Mr. Babin. Yes, sir. Thank you, Mr. Chairman. And I also 
would like to welcome Mr. Lamb to our committee. We have a 
great committee here, and we're quite bipartisan on many, many 
issues, although, as Mr. Perlmutter said, sometimes it does get 
heated on certain issues. But welcome.
    Mr. Lamb. Thank you.
    Mr. Babin. Mr. Chairman, thank you for the opportunity to 
conduct this joint hearing. I look forward to the testimony of 
our witnesses. Specifically, I am interested to hear their 
insights and observations from the recent Space Weather 
Workshop in Colorado. Understanding and predicting space 
weather is critical to protecting American infrastructure and 
human safety both in space and on the ground.
    While government agencies have made steady advances in this 
area, we must now explore ways to expand our capabilities and 
begin leveraging the private sector. As we begin preparations 
for space exploration outside the protection of Earth's 
magnetosphere, the Space Subcommittee is keenly aware that 
understanding and predicting space weather is more important 
than ever for the safety of our astronauts and the achievement 
of our exploration goals.
    Perhaps even more tangible are the effects of space weather 
here on Earth. And while space weather can give us some of the 
most beautiful sights on Earth--the aurora borealis, or the 
northern lights--there are also many negative effects of space 
weather that often go unseen. Strong space weather events can 
knock out electrical grids, corrode pipelines and disrupt 
satellite communications. Many, including the brave men and 
women serving our country, rely on critical information 
gathered by in-space infrastructure like GPS and remote 
sensing. These space-based assets are particularly vulnerable 
to the effects of space weather.
    It is time to develop a plan to protect ourselves from 
these events. NASA's continued research and development of 
space weather satellites will provide more advanced American 
capabilities. That, combined with NOAA's work in data analysis 
and space weather prediction, comprise a strong government 
effort. However, the progress does not come without cost, which 
is why we must look to the private industry moving forward.
    The Deep Space Climate Observatory, also known as DSCOVR, 
is a good example for defining roles and responsibilities. 
DSCOVR, built by NASA, is NOAA's first operational satellite in 
deep space, orbiting a million miles from Earth in order to 
provide early warnings of potentially harmful space weather. 
This NOAA operational capability for space weather analysis and 
prediction was established through the technology transition of 
unique scientific instruments researched and developed by NASA. 
I contend this model represents the way forward for interagency 
space weather activities.
    As the private sector continues to move into low-Earth 
orbit, more and more companies will be relying on space weather 
predictions to protect their assets. Space weather is another 
area of great commercial opportunity in space, and, as we have 
in the past, we must continue to encourage and leverage these 
private endeavors for the benefit of all Americans. The threats 
posed by space weather events can be mitigated through advanced 
research and prediction methods. I hope that this hearing today 
will shed light on our current space weather projects and how 
we can continue achieving American excellence in such a very 
critical area.
    I want to thank our witnesses for being here today, for 
their testimony, and I'm looking forward to the discussion and 
hearing--and shedding some light on this issue.
    I yield back. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Babin follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Chairman Biggs. Thank you, Mr. Babin.
    I now recognize the Ranking Member of the Space 
Subcommittee, the gentleman from California, Mr. Bera, for an 
opening statement.
    Mr. Bera. Thank you, Mr. Chairman. And I want to welcome 
the witnesses and add my welcome to our colleague from 
Pennsylvania, Mr. Lamb. I think Conor is going to find that 
this is one of the best committees to be on in the sense of the 
topics that we're talking about. And I think if there were 
Neilson ratings for C-SPAN committee viewership, I think we 
would be at the top of that because the riveting topics that we 
talk about, habitable planets, how we're going to deep space, 
as Mr. Perlmutter would say--let me get that out there--how we 
go to Mars by 2033. And today's topic is no different, you 
know, the importance of understanding and forecasting space 
weather.
    I mean, as we think about, you know, how dependent--our 
communications, our electrical ability, our navigational 
systems are on, you know, on space weather and how vulnerable 
they are, it becomes increasingly important. And we know NASA's 
research and observations in solar and space physics has been 
instrumental in achieving our current capabilities for space 
weather monitoring and prediction. The Advanced Composition 
Explorer and the joint European Space Agency/NASA mission, both 
launched over 20 years ago, along with other NASA spacecrafts 
such as STEREO and the Solar Dynamics Observatory provide 
critical information in forecasting solar eruptions and their 
movement through the heliosphere.
    That said, it's also important for us to understand that 
we're only at the early stages of our ability to predict and 
forecast space weather. Improving our current capabilities will 
require investment in basic research, additional observations, 
models, and the ability to transition models into operational 
use.
    The National Academies 2012 Heliophysics Decadal Survey 
stated, ``Achievement of critical continuity of key space 
environment parameters, their utilization in advanced models, 
and application to operations constitute a major endeavor that 
will require unprecedented cooperation among agencies in the 
area in which each has specific expertise and unique 
capabilities.''
    To that end, Mr. Chairman, the National Space Weather 
Strategy and Space Weather Action Plan provide goals for 
federal agencies to organize our research and operational 
efforts on space weather and responses to extreme space weather 
events. The Senate passed bill, and the companion House Bill 
introduced by Mr. Perlmutter would ensure continued interagency 
coordination and encourage increased involvement with 
international, academic, and commercial sectors.
    Mr. Chairman, the nation's efforts to deal with space 
weather demonstrate the ways in which our investments in basic 
research and NASA benefit our society. In the case of space 
weather, these investments are integral in ensuring the safety 
and operations of our critical infrastructure on the ground and 
in space.
    I look forward to hearing from our witnesses on what is 
needed to advance our nation's understanding and our ability to 
monitor, predict, and forecast space weather.
    Thank you, and with that, I yield back.
    [The prepared statement of Mr. Bera follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman Biggs. Thank you, Mr. Bera.
    I now recognize the Chairman of the full Committee, the 
gentleman from Texas, Mr. Smith, for an opening statement.
    Chairman Smith. Thank you, Mr. Chairman. And thank you and 
Chairman Babin for holding this hearing.
    While we are all familiar with terrestrial or Earth 
weather, what exactly space weather is and why it deserves our 
attention is much less widely understood. Broadly speaking, 
space weather is the way the behavior of the Sun and the nature 
of Earth's magnetic field and atmosphere interact. At a more 
detailed level, space weather is as complex of an issue as it 
is a consequential one.
    At the center of space weather, as with terrestrial 
weather, are storms. The type and intensity of these storms can 
vary widely, but all space weather storms do have one thing in 
common and that is they are affected by the Sun. Solar 
phenomena, like solar flares, send streams of charged particles 
toward Earth as solar wind. Once solar wind reaches Earth, it 
interacts in surprising and hugely consequential ways with our 
magnetic field. The impact of these interactions varies and is 
dependent upon the intensity of the charge and concentration of 
particles in the solar wind.
    However, disastrous events like GPS disruptions, satellites 
knocked out of orbit, and permanent damage to large swaths of 
the electric grid are possible and, over time, even likely. As 
a general rule, the damage done by space weather events will be 
proportional to the amount of advanced technology exposed. In 
our modern, technology-laden world, a large storm could be 
incredibly costly both in terms of dollars and lives.
    Geomagnetic-induced currents that result from space weather 
can damage oil pipelines, railways, power grids, and complex 
technology by causing extensive voltage surges. In the case of 
power grids, these currents have the potential to damage both 
transmission lines and transformers, which could potentially 
lead to the collapse of entire distribution networks.
    Space weather is also dangerous to human life. Astronauts 
on the International Space Station and commercial aviation 
flights and their passengers could be exposed to significantly 
larger and unsafe amounts of radiation during space weather 
events. Astronauts do have technologies in place to help 
protect them. Flights can be rerouted and grounded. But these 
quick, piecemeal fixes are not sustainable solutions to a 
potential major solar weather event.
    Just as we currently forecast the active elements of 
terrestrial weather involving water, temperature, and air, so 
too is there potential to do the same for space weather. In 
fact, efforts to model solar activity and forecast the active 
elements of space weather--the concentration of particles, 
electromagnetic energy, and magnetic field impacts--are already 
underway at federal agencies and private entities.
    The recent White House Office of Science and Technology 
Policy and the National Oceanic and Atmospheric 
Administration's request for information about space weather 
and ways commercial entities can help deserves our support. The 
efforts the private sector has been taking are promising and we 
should encourage them.
    We are increasingly dependent on advanced technology. The 
potential for disruption to society, including the possible 
destruction of critical infrastructure by space weather events, 
is alarming. While we have made strides toward better modeling 
and prediction of solar phenomena, as well as accurately 
forecasting space weather, there is still significant room for 
improvement.
    I look forward to learning from our witnesses today and 
hearing their insights and perspectives on this topic. This 
committee has a bipartisan history of meeting the challenges 
and advancing U.S. leadership in space, and I am hopeful space 
weather will be no exception.
    Thank you, Mr. Chairman.
    [The prepared statement of Chairman Smith follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Chairman Smith. And before I yield back, two things to 
mention, and that is I regret I'm going to have to shuttle back 
and forth between this hearing and the Judiciary Committee, but 
I hope to be back. And second, although I realized he has 
already been welcomed, I'd like to welcome Conor here for his 
first Science Committee hearing. Conor, I have a binder here 
for you of a lot of our activities and a lot of our 
jurisdiction, which I'll pass on to you after the Ranking 
Member finishes her statement. But we're glad to have you, and 
I appreciate Conor Lamb as being a Member of this Committee as 
well.
    Chairman Biggs. Thank you, Chairman Smith. I now recognize 
the Ranking Member of the full Committee, the gentlewoman from 
Texas, Ms. Johnson, for an opening statement.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    And before I do my statement, I too, would like to welcome 
Mr. Lamb and say that I know he's facing more Texans on this 
committee than practically any other committee here, but don't 
let that frighten you. We always look--know that our 
responsibility on this job is to look out for the future.
    We have a young future scientist potential sitting out here 
watching us this morning. I want to welcome her as well.
    Mr. Chairman, I do appreciate the fact that you're having 
this committee hearing from two committees because space 
weather is not well understood but has the potential to impact 
our daily lives in significant ways. It is a field that is ripe 
for research and innovation to ensure that life and property 
can be protected from the negative impacts of large-scale space 
weather storms to which Texas is accustomed.
    But also from the daily challenges posed by the space 
weather events, the need for basic research is clear, as many 
of the fundamental science and physics questions related to the 
Sun-Earth system and space weather remain unanswered. I'm 
pleased that the Chairman is holding this hearing today, as it 
allows us to assess the current state of space weather research 
and preparedness.
    I look forward to today's discussion. I hope it will allow 
us to move quickly to markup Mr. Perlmutter's Space Weather 
Research and Forecasting Act and take it to the full House for 
a vote. This bill is widely supported by the broad space 
weather community, which includes federal agencies, academia, 
and the commercial sector. Today's panels of expert witnesses 
is well-suited to provide us with an update on the current 
state of space weather research and development but also to 
make clear the need for prompt passage of this legislation to 
prevent backsliding on progress made today.
    I am heartened to see that we have witnesses from NASA and 
NOAA, the two lead federal agencies responsible for collecting 
the data on modeling and forecasting space weather events to 
the public to provide the Administration's perspective. Having 
an academic and a representative from the commercial sector at 
the table allows for a robust discussion not only on the state 
of science in space weather but also about current research 
needs moving forward. At this critical juncture, it is 
important for Congress to continue the forward momentum for 
what was set in motion by the National Space Weather Strategy 
and the National Space Weather Action Plan in 2015.
    Space weather research and prediction capabilities are 
widely considered to be almost 50 years behind the state of 
terrestrial weather prediction, leaving our society at a 
disadvantage. Space weather impacts can be far-reaching, with 
disturbances in the Sun-Earth system potentially leading to 
disruption of key services such as GPS, the electric grid, and 
airline communications to name a few.
    Despite our current observing assets that are gathering 
data on space weather phenomenon, we need to be thinking ahead 
to the next round of needed observational capabilities to 
ensure a continuation of critical data collection. We cannot 
sit idly by and take our time to protect our critical 
investments and society from the persistent damaging impacts of 
space weather events. Based on the need for additional research 
and collaboration and the clear and persistent threats posed by 
space weather phenomenon on our daily lives, there is no better 
time than now to put forth a legislative framework approach on 
how this critical issue should be addressed.
    I thank you, Mr. Chairman, and yield back.
    [The prepared statement of Ms. Johnson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman Biggs. Thank you, Ms. Johnson. I appreciate that.
    Now, we're going to introduce our wonderful witnesses on 
this panel. Dr. Neil Jacobs is our first witness today. He is 
the Assistant Secretary of Commerce for Environmental 
Observation and Prediction at the National Oceanic and 
Atmospheric Administration. Prior to his appointment at NOAA, 
Dr. Jacobs was the Chief Atmospheric Scientist at Panasonic 
Avionics Corporation where he directed the research and 
development of both the Aviation Weather Observing Program and 
the Numerical Forecast Models. He is the Chair of the American 
Meteorological Society's Forecast Improvement Group and also 
served on the World Meteorological Organization's Aircraft-
Based Observing Systems Expert Team.
    Dr. Jacobs holds bachelor of science degrees in mathematics 
and physics from the University of South Carolina, a master of 
science in air-sea interaction, and a doctoral degree in 
numerical modeling from North Carolina State University. 
Welcome, Dr. Jacobs.
    Dr. James Spann is our next witness. He is the Chief 
Scientist of the Heliophysics Division in the Science Mission 
Directorate at NASA headquarters. In 1986, Dr. Spann joined the 
NASA's Marshall Space Flight Center in Huntsville, Alabama, 
where he has held numerous positions, including Chief Scientist 
and Manager of the Science Research Office. He led the study 
and publication of the Heliophysics Science and the Moon and 
was Co-Chair of the Heliophysics Roadmap: The Solar and Space 
Physics of a New Era. Dr. Spann was awarded the NASA 
Outstanding Leadership Medal in 2010 and the NASA Distinguished 
Service Medal in 2013.
    He received his bachelor of science in mathematics and 
physics from Ouachita Baptist University and his Ph.D. in 
physics from the University of Arkansas in Fayetteville. He 
also spent two years as a postdoctoral fellow with the U.S. 
Department of Energy in Morgantown, West Virginia. Glad to have 
you, Dr. Spann.
    Dr. Sarah Gibson is our third witness, a Senior Scientist 
in the High Altitude Observatory at the National Center for 
Atmospheric Research and Co-Chair of the Committee on Solar and 
Space Physics at the National Academy of Science. Dr. Gibson's 
research centers on solar drivers of the terrestrial 
environment from short-term space weather drivers such as 
coronal mass ejections to long-term solar cycle variation. She 
was the recipient of the American Astronomical Society's Solar 
Physics Division 2005 Karen Harvey Prize. She was a scientific 
editor for the Astrophysical Journal and has served on many 
national and international committees.
    Dr. Gibson received her bachelor's degree in physics from 
Stanford University and her master and doctoral degrees in 
astrophysics from the University of Colorado. Welcome, Dr. 
Gibson.
    Dr. Kent Tobiska is our final witness. He is President and 
Chief Scientist of Space Environment Technologies. His career 
spans work at the NOAA Space Environment Lab, U.S.--excuse me, 
UC Berkeley Space Sciences Laboratory, Jet Propulsion 
Laboratory, Northrop Grumman, SET, Utah State University Space 
Weather Center, and Q-up LLC. Dr. Tobiska invented the world's 
first operational computer code for solar irradiance 
forecasting and extended this expertise into the development of 
operational space weather systems that now produce solar 
irradiances, geomagnetic indices, and ground-to-space radiation 
environment dose rates.
    Dr. Tobiska received a Ph.D. in aerospace engineering from 
the University of Colorado. He is a member of the American 
Geophysical Union, Committee on Space Research, American 
Meteorological Society, and an associate fellow of the American 
Institute of Aeronautics. We're happy to have you as well, Dr. 
Tobiska.
    Thank all of you.
    And now, I recognize Dr. Jacobs for five minutes to present 
his testimony, and I think the 5-minute timer's right there in 
front of you so you can see it clearly. Thanks, Dr. Jacobs.

                 TESTIMONY OF DR. NEIL JACOBS,

              ASSISTANT SECRETARY OF COMMERCE FOR

           ENVIRONMENTAL OBSERVATION AND PREDICTION,

        NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

    Dr. Jacobs. Good morning, Chairmen Biggs and Babin, Ranking 
Members Bonamici and Bera, and Members of the Subcommittees. 
Thank you for the opportunity to testify at this hearing about 
space weather.
    NOAA is the U.S. government's official source of civilian 
space weather forecast, warning, and alerts to the public, 
industry, and government agencies. Through our Space Weather 
Production Center (SWPC), NOAA delivers space weather products 
that meet the evolving needs of the nation. SWPC operates 24 
hours a day, 7 days a week and provides real-time forecasts and 
warnings of solar geophysical events. SWPC works closely with 
our U.S. Air Force partners, who are responsible for all 
national security needs and space weather information. SWPC 
efforts are also closely integrated with other agencies 
including NASA, National Science Foundation, and the U.S. 
Geological Survey, as well as commercial service providers, 
private industry, and academia.
    NOAA utilizes an array of space- and ground-based 
observations in our space weather forecast operations and 
related research. Currently, NOAA relies on two primary 
observational assets to underpin our forecasts and warning, one 
satellite instrument for imagery of the Sun's corona and the 
other for Earthbound solar wind. The solar imagery used by NOAA 
comes from the joint European Space Agency/NASA's Solar and 
Heliospheric Observatory, SOHO. SOHO's coronal imagery is 
critical for NOAA's 1- to 4-day lead time for geomagnetic storm 
conditions. SOHO is anticipated to run out of power by 2025, 
and it currently has no backup.
    In 2017, NOAA began development of a flight compact 
coronagraph (CCOR) to obtain imagery, and we will work with the 
U.S. Naval Research Laboratory to obtain the quickest possible 
delivery of this instrument. NOAA is currently evaluating an 
option to host the CCOR on our GOES-U satellite.
    The second satellite NOAA uses is the Deep Space Climate 
Observatory DSCOVR. Stationed at the Earth's Sun Lagrange point 
L1 a million miles from Earth, DSCOVR is critical for real-time 
measurements of Earthbound solar winds. These observations play 
a critical role in our quest to better predict the probability 
of an eruption of the Sun. When an eruption occurs, forecasters 
feed the data into computer models and determine the likely 
duration and intensity of the solar events of Earth's 
ionosphere and magnetosphere.
    NOAA forecasters communicate current and forecasted space 
weather conditions using a variety of products. Space weather 
scales, which are similar to hurricane classifications, 
communicate potential impacts such as radio blackouts from 
solar flares, solar radiation storms due to solar energetic 
articles, and geomagnetic storms from coronal mass ejections.
    Watches, warnings, and alerts are issued by email via a 
product subscription service and also telephone notification to 
critical customers such as power grid operators, FEMA, and DOD. 
Using these NOAA products, the nation can enhance national 
preparedness, mitigation, response, and recovery actions to 
safeguard assets and maintain continuity of operations during 
space weather activity.
    SWPC ensures that all data are made available to the 
growing private sector service providers. The NOAA private 
sector partnership plays a vital role in meeting the nation's 
needs for space weather services. NOAA makes all of its 
information available and recognizes that a strong public-
private partnership is essential to establish observing 
networks conduct the research, create forecast models, and 
supply services necessary to support our national security and 
economic prosperity. NOAA is committed to working towards the 
growth of the private sector as a national infrastructure 
demands more space weather services.
    Space weather presents a variety of hazards to technical 
systems and human health. NOAA's space weather products serve 
major U.S. airlines, satellite companies, and all U.S. electric 
power companies. These industries are well aware that solar 
weather can impact their communications, navigation, 
electrostatic charging, and cause mission interruption.
    On April 19, the White House Office of Science and 
Technology Policy announced a development and update to the 
National Space Weather Strategy. This strategy, originally 
published in October of 2015, sets out to unite the U.S. 
national and homeland security with science and technology 
enterprise to formulate a cohesive approach to enhance national 
preparedness for space weather. This important update seeks to 
improve the government coordination on long-term guidance for 
federal programs and activities to enhance national 
preparedness for space weather events.
    The revised strategy will align with priorities identified 
by the Administration in the 2017 National Security Strategy 
and Space Policy Directive 1. NOAA will continue to work and 
partner with other federal agencies in this renewed effort to 
develop and strengthen our activities in space. NOAA recognizes 
the importance of engaging public and private expertise and the 
whole-community collaborative approach to enhance the 
resiliency and security of our nation to space weather storms.
    Thank you again for inviting me to participate today. I 
would be pleased to answer any questions you may have.
    [The prepared statement of Dr. Jacobs follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman Biggs. Thank you, Dr. Jacobs.
    I now recognize Dr. Spann for five minutes for his 
testimony.

                  TESTIMONY OF DR. JIM SPANN,

            CHIEF SCIENTIST, HELIOPHYSICS DIVISION,

                  SCIENCE MISSION DIRECTORATE,

         NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

    Dr. Spann. Thank you. Members of the Subcommittee, as the 
Heliophysics Chief Scientist for NASA's Science Mission 
Directorate, I am honored to appear before this Committee to 
discuss NASA's contribution to understanding space weather 
phenomenon.
    Space weather is complex, involving intricate interactions 
between the Sun, solar wind, Earth's magnetic field, and 
Earth's atmosphere. NASA serves as a research organization for 
our nation's space weather efforts, working with the National 
Science Foundation to understand space weather. Together, we 
help operational organizations, NOAA, and the Department of 
Defense incorporate that understanding into operational models 
and space weather predictions to better prepare the nation for 
potential impacts.
    Our ability to understand the Sun-Earth system is of 
growing importance to our nation's economy, national security, 
and our society as it increasingly depends on technology. While 
the Sun enables and sustains life here on Earth, it produces 
radiation and magnetic energy that can have disruptive impacts 
in space, in air, and on the ground.
    Understanding the Sun-Earth system has practical 
implications for life on Earth. For example, the electric power 
industry is susceptible to geomagnetically induced currents, 
which can, without advanced warning, overload unprotected power 
grids and result in widespread power outages. In the spacecraft 
industry, intense geomagnetic and radiation storms have the 
capacity to disrupt normal operations such as satellite 
communication and television service. Space weather can cause 
irregularities in signals from GPS satellites, which can 
adversely affect our warfighters, first responders, truckers, 
oil drillers, large-scale farmers, and outdoor enthusiasts, 
pretty much everybody. Finally, the aviation industry is 
particularly susceptible to space weather events from both an 
operational and crew/passenger safety perspective.
    NASA's heliophysics missions all contribute to 
understanding the physical processes that drive space weather. 
With locations throughout the solar system, we observe the Sun-
Earth system every day using NASA's Heliophysics Systems 
Observatory with 18 active missions comprised of 28 spacecraft. 
At NASA, we're extremely excited to see how our new missions 
will revolutionize our understanding of the Sun-Earth system 
and space weather.
    The recently launched GOLD mission and an upcoming ICON 
mission will improve our understanding of what is happening in 
the ionosphere, the region in the near-Earth space where 
significant space weather impacts occur. This summer, we'll 
spend a spacecraft, Parker Solar Probe, closer to the Sun than 
ever before and dive into the Sun's hot corona to provide the 
closest ever observations. She will reveal the fundamental 
science behind what drives the solar wind, which is the 
constant outpouring of material from the Sun, and improve 
forecasts of major eruptions on the Sun, all of which affect 
space weather near the Earth.
    NASA's Heliophysics Division is in the process of selecting 
its next strategic mission, the Decadal Survey priority IMAP. 
This mission will observe the boundary of our solar system and 
investigate acceleration processes critical to understanding 
space weather. As you've heard, NASA and NOAA are exploring a 
potential partnership to share IMAP's launch vehicle with 
NOAA's space weather follow-on mission. These new missions will 
join our existing fleet to enhance the already vibrant 
Heliophysics Systems Observatory.
    NASA supports world-class research based on data from these 
missions in order to understand the connections within our Sun-
Earth system for science advancement and human safety both on 
Earth and beyond. This field of research is called heliophysics 
and provides the foundation upon which predictive models of 
space weather are built. To help mitigate space weather hazards 
posed to assets both in space and on the ground, NASA continues 
to develop and improve predictive models through enhanced 
fundamental understanding of space weather by funding competed 
basic research opportunities, which includes topics such as 
solar variability and ionosphere irregularities.
    NASA, in coordination with NOAA and NSF, has developed a 
cross-agency plan to enhance the transition of research models 
to operations. NASA has a pilot program to improve space 
weather products and services for research to operations which 
will draw on expertise in academia and in industry both in 
technology and knowledge. This program utilizes the established 
NASA Community Coordinated Modeling Center, a successful 
multiagency partnership that provides space science simulations 
to the research community and support our sister agencies by 
transitioning space research models to operations.
    NASA appreciates the continued support from this committee, 
which ensures that the United States maintains a superior 
position in understanding space weather and looks forward to 
the continued collaboration with our sister agencies, 
international partners, academia, and industry.
    NASA heliophysics has a big year in front of it. The data 
we receive from upcoming missions and from the existing 
Heliophysics Systems Observatory will vastly improve our 
understanding of this challenging phenomenon and enable 
improved predictive space weather models. Heliophysics research 
is intrinsically the science of space weather, and NASA is 
committed to remain the leader in that research.
    So I thank you now for the invitation to be here today, and 
I look forward to answering any questions that you may have.
    [The prepared statement of Dr. Spann follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairman Biggs. Thank you, Dr. Spann.
    I now recognize Dr. Gibson for five minutes for her 
testimony.

                 TESTIMONY OF DR. SARAH GIBSON,

          SENIOR SCIENTIST, HIGH ALTITUDE OBSERVATORY,

                NATIONAL CENTER FOR ATMOSPHERIC

                     RESEARCH AND CO-CHAIR,

             COMMITTEE ON SOLAR AND SPACE PHYSICS,

                  NATIONAL ACADEMY OF SCIENCE

    Dr. Gibson. Thank you very much.
    My intent is to provide context for your discussion of 
space weather and to argue for moving forward with legislation 
as soon as possible.
    In brief, the points that I wish to convey today are as 
follows: First of all, space weather has broad and potentially 
devastating impacts on the nation; second, there are 
fundamental scientific questions that are central to space 
weather that remain unanswered; third, space weather research 
and operations are observationally starved; fourth, the path 
forward requires strategic actions that emphasize both 
efficiency and agility; and finally, space weather legislation 
is needed now.
    First of all, space weather happens all of the time. We're 
living in the outer atmosphere of our Sun, which is 
continuously expanding outwards as the solar wind and passing 
the Earth as an unceasing stream of charged particles. On a 
regular basis, dense, fast, and strongly magnetized particles 
are buffeting the Earth and breaking through its magnetic 
shield.
    In the past, this would just mean that we would see 
auroras, but now, technology has made us vulnerable. As you've 
heard, geomagnetic activity induces ground currents and impacts 
power grids. Perturbations of the upper atmosphere disrupt GPS, 
radiocommunication, and increase the risk of collisions for the 
International Space Station and for satellites in low-Earth 
orbit. Radiation storms knock out satellite function, increase 
the exposure of airplane passenger and crew on polar routes, 
and are particularly dangerous for our astronauts as they 
venture forth to the moon and Mars.
    Space weather has the potential to be really bad. The 
Carrington event of 1859 was so big it led to auroras as far 
south as Cuba and sparked fires along telegraph lines. It's 
been estimated that a modern superstorm of this size would cost 
tens of billions of dollars per day, potentially reaching 
totals in the trillions of dollars from extended power outages 
and global supply chain disruptions.
    Even when it's not a superstorm, space weather is a 
problem. Analysis of insurance claims associated with power 
grid disruptions estimated costs on the order of $10 billion 
per year for the United States for non-extreme events, and even 
moderate space weather increases risk for serious hazards, as I 
have described.
    So what do we know? Well, we know that space weather comes 
from the Sun. Solar flares have an almost immediate effect at 
the Earth, and then mass and magnetic fields are hurled out 
into the solar wind, hitting the Earth a day or two later. The 
devil is in the details. We don't know what triggers the solar 
eruption. We don't know how things change from Sun to Earth, 
and we don't know what exactly to expect when it gets here. 
There is still much to learn about the fundamental physical 
processes and the complex interactions from Sun to Earth.
    Our best bet for filling the gaps in our understanding are 
more observations. For tackling basic science problems, this 
includes higher-quality observations, as well as new types of 
observations and from new viewpoints. For operational forecasts 
and monitoring, the requirements are different. There the 
emphasis is on observations we can analyze quickly and that are 
consistent and reliable.
    The legislation, as presented in the Senate and proposed 
House bills, provide a good framework for progress. The bills 
enable research, for example, through multidisciplinary science 
centers to solve the fundamental problems that will then lead 
to better forecasting capability. They extend our observational 
assets, both for filling the science gaps and to protect our 
baseline for operations. They also lay out the roles and the 
responsibility for the different government agencies, which 
leads to more efficient use of national resources and to better 
protection of our nation.
    They promote further efficiency through seeking leveraging 
opportunities from outside the government, including the 
international, the commercial, and the academic sectors. An 
example of this: our prime operational research, the LASCO 
Coronagraph is on the SOHO satellite, which is a collaboration 
of NASA and the European Space Agency. Another example, the 
NASA GOLD mission, was launched on a commercial communications 
satellite.
    And finally, the proposed legislation promotes an agile and 
necessarily open-ended approach to capitalizing on innovations 
from and interactions with these nongovernmental groups.
    In summary, we are an increasingly technological society, 
and we cannot afford to ignore space weather. If we delay 
action, we run multiple risks. We run the risk of being 
unprepared for a superstorm. We run the risk of failure of our 
operational assets. LASCO is 23 years old, and that would 
degrade even our current forecasting capability. And then 
there's the costs and the risks associated with even moderate 
space weather. Every day we wait, we waste time and money and 
we roll the dice on our safety.
    [The prepared statement of Dr. Gibson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Chairman Biggs. Thank you, Dr. Gibson.
    I now recognize Dr. Tobiska for five minutes for his 
testimony.

               TESTIMONY OF DR. W. KENT TOBISKA,

                 PRESIDENT AND CHIEF SCIENTIST,

                 SPACE ENVIRONMENT TECHNOLOGIES

    Dr. Tobiska. Good morning, Chairman Biggs and Babin, 
Ranking and Committee Members. I'm pleased to testify on the 
commercial perspective on impacts, monitoring, and forecasting 
of space weather as President of Space Environment Technologies 
and also as an Executive Committee member of the American 
Commercial Space Weather Association.
    As you've heard, space weather occurs because energy 
transfers from the Sun to Earth, causing sudden changes in 
ground currents, atmospheric radiation, ionosphere, and upper 
atmosphere densities. From our experience, for example, the 
power grid is susceptible. As you know, the 1989 Hydro-Quebec 
power collapse, because of a geomagnetic storm, left 9 million 
customers without power, and imagine the entire Northeastern 
sector of the United States without power because of a 
Carrington-class geomagnetic storm. Predicting this without 
data and observations is impossible.
    A common index identifying storm severity is Dst and, in 
2011, a company developed the first operational six-day Dst 
forecast for Air Force Space Command. Now, it is publicly 
available and used to help estimate coming geomagnetic 
disturbances.
    Turning to radiation, pilots, flight attendants, and 
frequent flyers can receive excessive dose. Galactic cosmic 
rays are the main cause, although a solar flare can triple it. 
Increased exposure leads to greater statistical risk of death 
from deep-tissue cancer. There's a handy rule of thumb: Every 
10 hours at 37,000 feet equals a chest x-ray, and that is one 
round-trip between DC. and L.A. Until recently, there was no 
monitoring, so a company started the ARMAS program in 2013 to 
measure dose on aircraft and immediately send it to the ground 
for public use.
    Next, ionosphere disruptions can lead to lost high-
frequency radio signals, as you know. Nine days after Hurricane 
Katrina, as helicopters lifted people off of rooftops, the 
fourth largest flare in history occurred. It caused blackouts, 
affecting disaster recovery HF radio communications. Those are 
used because Katrina wiped out the telecommunications 
infrastructure. Coast Guard recovery ships couldn't even 
communicate with the helicopters. Learning from this event, we 
saw that no credible HF availability forecast existed, thus, 
companies worked with Utah State University to develop and 
distribute a free HF radio 24-hour global forecast.
    Finally, from large flares and geomagnetic storms, upper 
atmosphere density increases, affecting satellite orbits. Now, 
in 1990, NORAD lost 200 satellites during one storm from its 
catalog. Based on that experience, Space Command launched a 
major effort to improve their upper atmosphere forecasts. 
Within ten years, the HASDM system was deployed, and after 15 
years, a new upper atmosphere density model was released. That 
model was the single largest improvement in upper atmosphere 
density uncertainties since the 1960s. Companies were the key 
participants with Space Command to build that model, and now, 
the solar geomagnetic activities created cut atmospheric 
density uncertainties in half.
    I use these examples to emphasize that real-time data and 
observations are vitally important for space weather 
monitoring. Monitoring cannot succeed until we produce a volume 
of data that is larger than is currently done by the--all 
agencies combined. To improve prediction, the use of physics-
based data assimilation and ensemble models is our future. The 
main problem is forecasting the arrival of coronal ejected 
materials at Earth and knowing the magnitude of its effect. 
Every important risk management activity depends on solving 
this problem, and operational data from commercial space 
weather is a critical part of the solution.
    Mr. Chairman, Ranking Members, and Committee Members, thank 
you for this opportunity to testify, and I welcome any 
questions.
    [The prepared statement of Dr. Tobiska follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Chairman Biggs. Thank you, Dr. Tobiska.
    I now recognize myself for five minutes for questions. And 
before I do so, I just want to make two quick points. Number 
one, I am in the similar boat as Chairman Lamar Smith as I 
serve on the Judiciary Committee, and so I will be in and out 
the balance of this hearing, running down those stairs and back 
up, which apparently is a better use of my transportation mode 
than the weekly round-trip from here to Phoenix that I take, 
so--which makes me very nervous.
    Dr. Jacobs, the Department of Commerce recently sent out a 
request for information seeking public comments on federal 
space weather policy. Among other things, the RFI seeks input 
on ways to advance engagement with the private sector in this 
effort. Can you please give us an idea of how the private 
sector might enhance the National Space Weather Strategy?
    Dr. Jacobs. What we're interested in learning from that is 
if they have any capabilities, either ground-based, Sun-facing 
or space-based Sun-facing observing capabilities that could 
enhance our mission or possibly even forecasting technologies 
or capabilities.
    Chairman Biggs. Thank you. And, Dr. Tobiska, can you tell 
me--please tell the Committee how space environment 
technologies can aid the federal government in improving its 
National Space Weather Strategy.
    Dr. Tobiska. In particular, the commercial sector first of 
all sees that it is in partnership with the agencies and 
academia in helping build this enterprise. The commercial 
sector has evolved over the last 15 to 20 years, and 
specifically, there's examples of what the commercial sector 
can do right now. In the ionosphere for the assimilation side 
of it, there are companies that are producing high-quality 
gold-standard simulation monitors that can be used by NOAA for 
that capability.
    For the aircraft radiation environment, companies are 
building monitoring devices for use on aircraft. In fact, we 
learn from the tropospheric weather community how to send that 
data down to the ground via an iridium satellite in real time. 
There's a lot of good NASA, NOAA, NSF, and FAA research 
aircraft that are flying those instruments right now, and then 
even the commercial space transportation sector is starting to 
buy those kinds of dosimeters.
    So the bottom line is that the commercial sector has a lot 
of capability for instrumentation, for some data production. 
There's colleagues in the audience here who produce solar 
energetic particle forecasts, and those kind of activities can 
actually be transitioned into products and services useful for 
the agencies so----
    Chairman Biggs. Thank you. And, Dr. Tobiska, can you 
briefly provide some examples of ways the federal government 
can improve its coordination with companies like yours? And 
then I'll ask Dr. Jacobs and Dr. Spann and Dr. Gibson the same 
question.
    Dr. Tobiska. Sure. That's an excellent question, and I 
really appreciate you asking it. That was actually a big topic 
in the sidebar meetings last week at the Space Weather Workshop 
that was hosted by NOAA and other agencies in Boulder. In 
particular, the big tentpole that exists right now for this 
collaboration is not having a common table to sit at, not 
having a process in place. Over the years, there has been 
friction between companies and agencies. It's because in 
agencies there's researchers, which are good, and they're very 
enthusiastic about doing activities, but sometimes they don't 
know what's going on in the commercial sector. And so there's 
been a competition at different times in the past.
    However, I think across the board on the commercial sector 
we see it extremely important and very possible that the 
commercial and the academic and the agency guys sit down at 
some kind of a process rather than we're all being in a 
swimming pool right now splashing each other. If we could 
determine a process to determine our swim lanes, that would 
really help I think ease any friction in the future and enable 
us to best use our resources where we're having expertise in 
each area.
    Chairman Biggs. Dr. Jacobs, do you concur? Do you want to 
expand on that?
    Dr. Jacobs. Yes, I do. This is one of the reasons why we 
released the RFI was because it's hard for us to sort of define 
swim lanes if we don't know what the other swimmers are doing. 
So it's of interest to us to learn what's going on in the 
commercial sector so there's no duplicative efforts in 
development and also any capabilities that they may have to 
help us transition research to operational forecasting faster.
    Chairman Biggs. Regrettably, my time is expired.
    And now, I'm going to recognize the gentleman from 
Colorado, Mr. Perlmutter, for five minutes for his questions.
    Mr. Perlmutter. Thanks, Mr. Chairman. And again, thank you 
to the panel. This is an excellent discussion.
    I've had the chance, and a number of others on this 
committee, we visited the High Altitude Observatory at Atacama, 
so the ALMA radio telescopes, and 66 of those telescopes were 
trained on the Sun as part of observations again through the 
National Science Foundation. I've had a chance to go to the 
NOAA lab where the Space Weather Prediction Center is, helping 
both the Department of Defense, as well as commercial, you 
know, civilian operations.
    And we've got a good system going, but to Dr. Tobiska's 
point--and I think the purpose of the legislation--is to 
provide some parameters and some guidelines as to how the 
commercial, the international, academic, and agency communities 
work together to avoid, you know, some big problems or at least 
to know more.
    So, Dr. Gibson, let me start with you. You went through 
about five points as to the importance of understanding space 
weather. So talk to me--and other members of the panel can jump 
in--as to what we in Congress can do for all of you to help you 
understand space weather and its potentialities on the Earth.
    Dr. Gibson. Okay. So, I mean, first and foremost, we need 
to learn more about these fundamental problems that we don't 
understand because that's how we're going to do better in our 
forecasting. And Dr. Tobiska mentioned, for example, the 
importance of knowing the structure of the coronal mass 
ejection, knowing what the magnetic fields are when they hit 
the Earth. That's something which is absolutely key to being 
able to make progress. And that's something which requires 
better observations of the magnetic fields back at the Sun, 
better observations of the coronal mass ejection as it moves 
from Sun to Earth, and better observations of the Earth's 
magnetic field, the space environment, and atmosphere. And so 
all these observations are needed.
    And then we have to bring together the modelers, the 
theorists, the data scientists who can help us figure out how 
to improve our understanding and our forecasting using these 
observations. And so I think that's the first and foremost 
thing that has to happen.
    Mr. Perlmutter. Dr. Spann?
    Dr. Spann. Yes, I think I'd concur that having the 
observations that are fundamental to increase our understanding 
are critical. And, as I mentioned in my opening statement, we 
have several missions that not only are doing that now that are 
coming online to do exactly that where we're studding 
acceleration processes, we're--both right near the Sun with 
Parker Probe or with the new IMAP mission, which is focused on 
not only looking at the boundary of the solar system but also 
looking at acceleration processes perhaps a little bit closer 
to the Earth. And then with ICON and GOLD really studying where 
the rubber meets the road in terms of the impacts of much of 
our technologies and assets which are in the near Earth 
environment.
    And so as we pursue the decadal priorities in terms of 
these missions, while we are focused on the fundamental 
understanding, there is always this aspect that there's an 
applied component that--where we can work with our sister 
agencies and academia and industry. Quite frankly, we rely so 
heavily on academia and industry in terms of providing that 
knowledge base to really understand these missions.
    And so with NASA continuing the strategy with these 
missions that are ongoing and the ones that are a little bit 
further out is the way we believe is going to provide the best 
foundation so that we can have better predictions for space 
weather.
    Mr. Perlmutter. All right. So to Drs. Tobiska and Jacobs, 
are there forums or conferences--is there really--is there any 
structure or is it really just a swimming pool, you know, and 
you're not in each other's lanes? What kinds of things are out 
there to allow the international community, industry, academia, 
and the agencies to work together in sync and not sort of at 
cross purposes?
    Dr. Tobiska. I'll take a first stab at that. The--first of 
all, that's directly on point. I think if you hadn't been a 
space weather week last week, you certainly would have had a 
good contribution. The--in particular, the American 
Meteorological Society is a professional society that has acted 
as a neutral third-party arbitrator to some extent in maybe a 
decade or 15 years ago when the commercial weather and NOAA 
were having issues trying to resolve which swim lanes they were 
in. As a community, the commercial guys, the academic guys, and 
the agency folks really do think the AMS can provide that role, 
and they've actually indicated that they would be interested in 
that in the future.
    So of course there's other meetings and conferences of 
opportunity, but I would say if there's a neutral third party 
that would really help organize a table or process for 
discussion, perhaps some agencies can also help that.
    Mr. Perlmutter. Thank you, Doctor.
    Dr. Jacobs, my time has expired, so I would, if I could, 
like to introduce into the record, Mr. Chairman, a number of 
letters that we have received from the American Astronomical 
Society; the American Commercial Space Weather Association; the 
American Geophysical Union; Carmel Research Center; Penn State 
University; University of Colorado; University of Michigan; 
University of New Hampshire; and the University Corporation for 
Atmospheric Research, UCAR. And I ask unanimous consent to 
enter those.
    And just as a parting comment, the purpose of the 
legislation we're bringing is to help everybody get into those 
lanes to make the predictions and observations to avoid a lot 
of pain that might come from some eruption or another. Thank 
you.
    Mr. Babin. [Presiding] And without objection, those will be 
entered into the record. Thank you.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Babin. And in the absence of Chairman Biggs, I'm the 
Chairman of the Space Subcommittee and will preside until he 
returns. And I'd like to recognize myself for five minutes for 
questions.
    During the recent 2018 Space Weather Workshop in Colorado, 
several presentations alluded to the private and academic 
opportunities within the overall space weather enterprise. 
These opportunities include the Space Weather Technology 
Research and Education Center at the University of Colorado in 
Boulder. Amen. And the possible use of future OneWeb commercial 
satellites as polar orbit environmental sensors. What other 
opportunities, especially in forecasting and prediction 
analytics, are available for the private and academic sectors 
to help NOAA, the Air Force, and NASA to accomplish space 
weather goals? Dr. Jacobs, I'd like to direct that to you 
first.
    Dr. Jacobs. The two primary things would be observations 
and forecasting. So we need observations both to initialize the 
predictions, as well is to verify the forecasts. So it's 
impossible to improve a forecast unless you have observations 
for verification.
    The current state of the forecasting is we essentially see 
an event occurring on the Sun and then we can predict how that 
will impact the Earth, but there's really no way to predict 
when these events will occur other than some weak probabilistic 
guidance, and that I think is where the future of the research 
needs to focus is actually predicting the onset of these 
events, not what happens once they occur.
    Mr. Babin. All right. Thank you very much.
    And Dr. Spann, could you elaborate on that?
    Dr. Spann. Yes. I think that understanding and being able 
to predict these events is really tied to the fundamental 
understanding of what's going on. And as we all try to identify 
our swim lanes--and I'd like to take that analogy a little 
further--I think where we want to go is actually synchronized 
swimming. And so--but right now, we are identifying our swim 
lanes and understanding what roles each agency plays, and for 
NASA that is really providing the fundamental understanding. 
And as we not only launch these new missions, which are really 
targeted, we also have a new space weather application--science 
application program that we're rolling out, which will allow 
competed opportunities very specifically tied toward 
transitioning the science research to an operational scenario, 
and that will certainly engage the academic and industry very 
heavily. And so those are the two areas where I would say--
where we can get to the synchronized swimming scenario.
    Mr. Babin. Well, we were just talking about Esther Williams 
and--so that's a good analogy. And would either of the other 
two, Dr. Gibson or Dr. Tobiska, would you like to elaborate on 
that if you would?
    Dr. Gibson. Sure, yes. I would just comment that there's 
different kinds of observations that are needed, right? I mean, 
there's the observations we need to make progress in the 
fundamental science, and this is the real cutting-edge new big 
telescopes. New measurements, and from different vantages. One 
of the exciting opportunities is to take observations from a 
place in the Sun's orbit where you can look back and see a CME 
moving from the Sun to the Earth. And this is something that 
the European Space Agency may actually take on and be an 
incredible complementary asset to our observations, which are 
looking right along the Sun-Earth line.
    You take that a little farther and you could observe from 
above the Sun's poles looking down, and you would get that same 
operational benefit of seeing eruptions go from the Sun to the 
Earth directed at the Earth, and yet you'd get other scientific 
benefits as well.
    So there's exciting opportunities for moving forward in the 
fundamental research, and then there's other observations we 
need to basically have the best possible operational 
capabilities. And some of these are the ones we know about like 
the LASCO Coronagraph and the observations of the solar wind 
just upstream of the Earth. And these we have to maintain so we 
can keep doing as well as we are now, but there may be new 
operational assets that, as we move forward in the fundamental 
science, we identify as observations that can make us actually 
do better in terms of the operations.
    And then finally, the other kind of observations that we 
need in the benchmarking activity, are related to applied 
science goals. In the benchmarking activity, one of the things 
they tried to study was the geomagnetic activity and the ground 
currents, how extreme they could get. To do that, they needed 
magnetometers on the ground and also magnetotelluric surveys 
which tell you about the ground conductivity. And they found 
that only about half of the United States was really covered by 
these observations, and this represents another gap that we 
need. So we just keep finding new things that we need to 
observe.
    Mr. Babin. Yes, thank you. And Dr. Tobiska?
    Dr. Tobiska. Yes, just one or two comments. I would really 
like to echo my other colleagues who emphasized the 
observations needed of the material coming from the Sun to the 
Earth. Right now, we are really at the point like the 
tropospheric weather community was 50 years ago. We're just a 
half-dozen cities making temperature measurements. We can't 
predict when the snow is going to come over the mountain unless 
we look out the window.
    Now, we need to have the thousands and tens of thousands of 
measurements in that realm. They don't exist yet. Plus there's 
other measurements downstream for other technologies, but if we 
could solve that viewing of what's coming at us from the Sun, 
knowing the velocity and the directionality of it to get the 
magnitude, that would be a big deal.
    Mr. Babin. Right. Thank you. And I have about five other 
questions, but I'm out of time. A lot of them are--I really 
would like to hear some answers on, especially in regards to 
national security issues.
    But I would like to recognize Dr. Bera, the gentleman from 
California, for his five minutes.
    Mr. Bera. Thank you, Mr. Chairman. As I said in my opening 
statement, these are fascinating hearings about science. And, 
you know, for those viewers at home I think it's important--you 
know, often people say, well, why is Congress talking about 
space weather? But, you know, I think Dr. Gibson in your 
opening statement--I think each of you talk about how these 
space phenomenon and solar phenomenon can impact every aspect 
of our lives.
    You talked about the electrical grid, you talked about our 
GPS and navigational systems, and, you know, often the public 
may just think, you know, GPS is, you know, what I've got on my 
phone and it helps me get from point A to point B, and if it 
goes down, well, what's the big deal? I might have an old 
Thomas Guide in my glove box that I can open up and look in.
    But Dr. Gibson, maybe if you want to just expand--I mean, 
if we're thinking about the future and we're going to have 
autonomous vehicles, we're going to have, you know, autonomous 
trucks, that's all going to be reliant on GPS navigational 
systems. And if you just want to talk about the impact if GPS 
was knocked down.
    Dr. Gibson. Yes, absolutely. And I think there's a whole 
continuum there, right? I mean, there's the degrading of GPS 
where it introduces errors, which can be very significant, 
maybe not for us if there's a little glitch when we're getting 
directions, maybe it's not that big of a deal, but for doing 
mineral surveys or--there's many, many applications where the 
precision is critical. And then if there's a big event, there's 
the potential for a true loss, and that's something which hits 
so many different aspects of peoples in society today.
    Mr. Bera. So it's incredibly important for us to better 
understand this phenomenon as we become increasingly reliant on 
these new technologies and so forth.
    Dr. Spann, you touched on the Parker Solar Probe and, you 
know, if you could just expand on what the solar probe would 
allow us to learn and why--you know, it'll go closer to the Sun 
than I think anything we've ever sent, and if it will help us, 
you know, with predictable capabilities and what kind of 
science we're going to learn from----
    Dr. Spann. So Parker Solar Probe is scheduled to be 
launched, and the window of opportunity opens up at the end of 
July through August, and that is really focused on two areas. 
One is trying to understand the acceleration processes. As much 
as we observe the solar wind, which are the particles emanating 
from the Sun, we don't understand how they get up to the speeds 
they get up to. And so a lot of that acceleration process 
happens very, very close to the Sun, and we've remotely 
observed the Sun but never really actually gone and touched the 
Sun, and so Parker is going to be our first opportunity to do 
that, an incredible technology advance.
    So understanding that acceleration process and then also 
just understanding just kind of fundamentally, you know, parts 
of the solar atmosphere are hotter even than the surface of the 
Sun, and we just don't understand that. And so what's going on 
there? All of that provides us the fundamental understanding 
about how the Sun works and how it impacts our Earth system, 
and so Parker is going to provide a significant advancement in 
those areas.
    Mr. Bera. Yes, Dr. Gibson, if I--I'll come back to you. You 
know, we obviously can try to better understand solar 
phenomenon and solar flares and things that potentially disrupt 
and cause space weather. Are there protective things that we 
can do, you know, here on Earth, you know, understanding that 
we can't control it, but if we get better at predicting it, you 
know, what would the things that we might do to protect some of 
our systems and, you know--or build redundancy?
    Dr. Gibson. Absolutely. So, I mean, there's a range of 
things. If we know what's going to happen, for example, the 
power company can operate in modes that will avoid catastrophic 
failure, but--and the airlines can potentially change the 
altitude of their flights. There's various things that can be 
done. The problem is it's expensive to make these mitigations, 
and it's critical that we don't give false positives. We have 
to do better in our forecasting so that they can be taken 
seriously. And then also we can make use of the benchmarking 
activity to try to get a sense just how bad things can get can 
help us harden our assets so that we can prepare for the worst.
    Mr. Bera. Okay. Great. And I'm about out of time, but as a 
Member who represents California who also happens to be a 
physician, Dr. Tobiska, maybe I should get a lead-lined jacket 
or something for these flights. So thank you, and with that, I 
will yield back.
    Mr. Babin. Thank you. I appreciate it, Dr. Bera.
    And now the gentleman from California, Mr. Rohrabacher.
    Mr. Rohrabacher. I appreciate this hearing, and I 
appreciate the guidance that you're trying to give us right 
now.
    How does space weather and a space weather storm--how does 
that compare to an EMP attack, for example, in terms of the 
danger that we face? Maybe just start at that end and go to 
that end.
    Dr. Tobiska. That's an excellent question, and I know that 
there's been a community. I think the NRC has actually looked 
at that. In general, the severity of an EMP attack against the 
United States compared to a Carrington-class event are in the 
same order of magnitude. If we were to have a Carrington-class 
event in the United States today that affected, say, the 
Northeast of the United States, you could potentially have, you 
know, days to weeks to months of power outages.
    And the problem is is that the big transformers that 
distribute the power grid, when they're hit by this induced 
current and they blow out, there are not transformers sitting 
on the shelf to replace them. If each one of these things--the 
big ones are custom-built. I'm not talking about the telephone 
pole ones. So building those takes months to do, and they're 
not sitting around, so that's the problem.
    Mr. Rohrabacher. So a space weather storm could give us 
that same impact that we've been warned about with EMP. What 
could--for example, could some space weather storm impact on us 
to the point that people might wake up one day and not be able 
to use any of their credit cards or use their cell phone or 
things like that?
    Dr. Spann. Yes. I think that because we--I mean, just think 
of in the morning you plug in everything, you know, to an 
outlet or whatever, so that--you know, anything that requires 
an outlet now is going to be a problem. And so it does impact a 
lot of things, all of--you know, we're just so technologically 
dependent not only on the ground but in space for our 
communications, so it would, you know should such an event 
occur, it would impact----
    Mr. Rohrabacher. GPS?
    Dr. Spann. Yes.
    Mr. Rohrabacher. Our GPS----
    Dr. Spann. Yes.
    Mr. Rohrabacher. --system could go down?
    Dr. Spann. Yes. And I would even make a point that, you 
know, it doesn't take a huge event like that for things to 
become impactful to us, even with the errors in GPS, even 
without an EMP or without a major solar storm, just the 
irregularities in the ionosphere cause issues with 
communications and GPS signals. And so it was mentioned that 
space weather happens all the time, and yes, it's punctuated 
with major storms, but we kind of live through it all the time.
    Mr. Rohrabacher. So we're pretty well--not pretty well but 
we have a certain degree of protection based on our own 
atmosphere and--that's around the Earth but--so this means that 
as we go beyond the atmospheres, especially with satellites, 
and also deep space missions that this subcommittee oversees, 
that this is a major--has to be a major consideration if we're 
expect to have a successful mission beyond that Earth 
atmosphere?
    Dr. Spann. Yes. And I think the--if I could speak to the 
deep space aspect, there are really two issues that we can talk 
about space weather. One is a very strong variability that's 
driven by the Sun and what's going on, but then there's a 
constant background radiation is primarily due to the galactic 
cosmic rays. And this is a place where I think industry can 
come in and have a major role.
    That background radiation, while it may be low-level, 
that's actually the biggest concern at least for astronauts and 
humans out in deep space. And so understanding how to protect 
ourselves and shield ourselves from that, we don't have a good 
solution for that, and I think this is a place where we could 
put some emphasis as well.
    Mr. Rohrabacher. Yes. I have always been surprised at the 
dangers that the world faces that nobody even knows about or 
cares about, and I've often in this committee tried to draw our 
attention to the fact that an asteroid could actually be 
discovered that might hit the Earth that we should be prepared 
for it. And I think that what we're talking about today is of 
that magnitude that we need to be aware that this would be an 
earthshattering--there are potential earthshattering events 
when it comes to this space weather storms and also the things 
that we've been talking about.
    So thank you, Mr. Chairman, for your leadership in both the 
Subcommittees, and let's work together to try to--it's our job 
to make sure we work on things that can bring down the damage 
that would be done on one of these natural threats. Thank you 
very much.
    Mr. Babin. Yes, sir. Thank you, Mr. Rohrabacher.
    Now, I'd like to recognize the gentlelady from Oregon, Ms. 
Bonamici.
    Ms. Bonamici. Thank you very much to Chairman Babin, 
Chairman Biggs, Ranking Member Bera, and thank you to our 
witnesses.
    I apologize I wasn't here during your testimony. I had a 
conflict with another hearing. But this is a fascinating and 
important topic, and I'm trying to figure out who's going to be 
the first person to use synchronized swimming and swarm task 
force in the same sentence.
    But to each witness, in northwest Oregon and in fact around 
the country it's essential that our constituents have access to 
accurate warnings about extreme weather events ahead of time to 
help vulnerable residents prepare. And last Congress this 
committee passed--in fact the House passed and the President 
signed into law bipartisan legislation I worked on with then 
Representative Bridenstine, now NASA Administrator Bridenstine, 
to strengthen terrestrial weather forecasting. But unlike 
terrestrial weather events, space weather has a broader 
potential to affect our entire planet. The Sun of course and 
its constant activity present so many risks for significant 
space weather events, as you have discussed.
    Unfortunately, we are decades there, as Dr. Tobiska points 
out, 50 years behind with the forecast capability of 
terrestrial weather predictions and are not yet able to prepare 
ourselves fully before an event occurs. And I know you have 
described both in your responses and in your testimony the 
implications of inaction and not moving forward with developing 
a more robust forecasting capability. And I want to acknowledge 
the progress, however, that's been made to date.
    So I want to ask what data gaps need to be addressed in our 
current space weather observing infrastructure that would help 
us better prepare against these threats, and also if you could 
let us know whether there is additional technology that needs 
development or is there sufficient technology if we could get 
the policy through updating? Go ahead, whoever wants to start, 
and then I do have another question. So, Dr. Spann?
    Dr. Spann. Well, I was just going to mention that just from 
a fundamental perspective really advancing our models based on 
the data input and the theories that our folks out in the 
academia and the industry are providing, that I think provides 
that foundational--and I'll let others speak to kind of how you 
implement that, but that is where I see us focusing on. I think 
we've talked about very large missions but also having 
distribute missions within the ionosphere with many, many small 
satellites and other very fascinating things, which again the 
academia and industry can partner very heavily with government 
to do that.
    Dr. Tobiska. Yes, I would just add a comment on this. The 
academic community, some in industry and certainly in the 
agencies have really begun to take on the lessons from the 
terrestrial weather community. Fifty years ago, they had the 
big physics-based models but not much data, so the forecasts 
weren't very good. Now, our forecasts are really pretty good 
but they have a lot of data coming in, so it's like knowing the 
answer--it's like cheating on the exam. You know what's coming 
at you, but that data assimilation in the physics-based models 
is critical. And then having several models run simultaneously 
in ensemble modeling like they do for the hurricane tracks--you 
have a whole bunch of models that you can see where they're 
coming--those--the combination of those two kinds of modeling 
with the data being ingested into them would really make a 
significant difference. I think the community as a whole really 
sees that as a path forward, but certainly, as colleagues have 
said, observations are really critical to feeding that.
    Ms. Bonamici. Terrific. We also had some good discussions 
in this Committee about the social sciences of message 
communication, which I think will be critical as well here. Dr. 
Gibson, can you talk about what the disadvantages or advantages 
of coordinating or streamlining both nationally and 
internationally with our efforts to gather space weather data? 
Is there potential for overlap or redundancy between agencies 
if there's not a direction on how to proceed?
    Dr. Gibson. There's definitely efficiencies of bringing 
together so that we're all working towards the same goal with 
our synchronized swimming. You know, there's also a huge 
benefit from sharing data between agencies, and, you know, the 
benchmarking activity is a great example of how having 
everybody bring their expertise and their knowledge to the 
table so we can really make progress.
    There was a release of data recently I think from the DOD 
that was part of the executive order which was satellite data 
of space weather from the DOD and which both introduces 
important new observations into the scientific analysis of 
space weather and also provides an opportunity for the DOD to 
get research done in the direction where they would really care 
about.
    Ms. Bonamici. And real quickly, how are we doing with 
international collaboration?
    Dr. Gibson. Fabulous. And this L5 collaboration 
particularly, which would be the Sun-Earth view from the side, 
is a wonderful opportunity.
    Ms. Bonamici. Thank you. I see my time is expired. I yield 
back. Thank you, Mr. Chairman.
    Mr. Babin. Sorry about that. Thank you very much, Ms. 
Bonamici.
    I'd like to recognize the gentleman from Alabama, Mr. 
Brooks, now for five minutes of questions.
    Mr. Brooks. Thank you, Mr. Chairman.
    Dr. Tobiska, you mentioned a Carrington-class storm. What 
is that and how frequently do they occur?
    Dr. Tobiska. Great question. They occur infrequently. First 
of all, the name comes from an 1859 event that Dr. Gibson 
mentioned where they observed it from the ground. They saw big 
streamers coming off the Sun when the clouds were there in 
London. That event caused aurora over Cuba. It caused balls of 
fire going down telegraph lines in the Midwest, and it also 
caused I think a fire in a telegraph station in Madison Square 
Garden in New York City.
    So this is where there's huge geomagnetic currents set up 
in the Earth's crust. Those currents have got to go somewhere, 
and they follow the path of least resistance, so they go down 
power lines, they go down oil pipelines. Wherever they can go, 
they'll travel. So that's kind of what a Carrington-class event 
is.
    The occurrence rate are very infrequent, although we had an 
event on--in July of 2012 where, had the event occurred about 
four days later when that region on the Sun was facing us, we 
would have had an extremely large geomagnetic event, maybe not 
a Carrington but certainly like a G4 level, like a--it'd be 
like a G4 hurricane. However, it was on the side of the Sun. It 
had just--the Sun had rotated around and we just missed that 
one, so those happen maybe on the order of once every solar 
cycle or every 10 or 12 years. There's probably moderate-sized 
storms that happen every year, but that's kind of the frequency 
of those.
    Mr. Brooks. Was the 1989 Hydro-Quebec power collapse caused 
by a Carrington-class storm?
    Dr. Tobiska. No, it wasn't. It was a smaller storm than the 
Carrington event, but it just happens that the ground 
conductivity in that part of the--North America is very 
susceptible to strong currents, and the Hydro-Quebec power grid 
was not able to trigger off its transmission lines quickly 
enough.
    Mr. Brooks. And how long was there a power collapse in the 
1989 Hydro-Quebec?
    Dr. Tobiska. In that one it was for a few hours to a few 
days in that region, yes.
    Mr. Brooks. Dr. Spann, in your written testimony you state, 
``For example, the electric power industry is susceptible to 
geomagnetically induced currents, which can overload 
unprotected power grids and result in widespread power 
outages.'' What has to be done to protect power grids?
    Dr. Spann. Well, I think there are kind of two things that 
need a look at. One is providing the early warning to those 
power grids so that they can--and I'm not a power grid operator 
or an expert necessarily in this field but they can reroute 
power in ways that the predicted induced currents on their 
power lines would not damage their transformers, which, as Dr. 
Tobiska mentioned, that is kind of the failure mode there, so 
kind of reservicing how they route their power is one way, but 
that requires some predictive capability. And so, again, trying 
to understand how this works and providing that information 
through the operational agencies so that they can provide that 
information down to the power companies is--I think is the way 
to prevent that sort of occurrence.
    Mr. Brooks. I thought when you began you said two ways, so 
we've got early warning. Is there a second thing that can be 
done to protect the power grid?
    Dr. Spann. Well, the early warning is kind of the initial 
step. The second step is that the power grids need to develop a 
system, and perhaps they already do, where they can reroute 
their power so that it avoids areas that we think are going to 
have large currents and being induced, so that would be the 
second.
    Mr. Brooks. Any judgment on how much cost as necessary in 
order to provide that kind of early warning with the accuracy 
and precision that is necessary for the power distributors to 
be able to properly react and plan and minimize damage?
    Dr. Spann. That's not something that I'm able to provide. I 
think there may be other people on the panel that could provide 
that. I would not know what that is.
    Mr. Brooks. Well, my time has expired, but if anyone has a 
quick answer--the Chairman might indulge us--on how much the 
cost might be.
    Mr. Babin. Sure.
    Dr. Gibson. I'll make an answer which is that it's not a 
quick answer because it's a complicated problem. To do what you 
just asked for, which is to get accurate forecasts of how bad 
the geomagnetic activity is, we don't have that answer yet, and 
there's no one single thing that could be done that would do 
that, so it would be hard to answer that question.
    Mr. Brooks. All right. Thank you, Mr. Chairman.
    Mr. Babin. Thank you. All interesting and important stuff.
    I'd like to recognize the gentleman from Virginia, Mr. 
Beyer.
    Mr. Beyer. Mr. Chairman, thank you very much. And thank all 
of you. It's a fascinating topic.
    Dr. Spann, you wrote about how the Heliophysics Division is 
in the process of selecting its next strategic mission and 
decadal survey priority, the IMAP program. The boundary of our 
solar system and investigating acceleration process is critical 
to our understanding our space weather. How do you define the 
boundary of the solar system, and why is that important?
    Dr. Spann. So it's important from the aspect of just 
understanding how the universe works, how our solar system 
works. IMAP is the interstellar mapping acceleration probe, and 
it is really focused on understanding the solar wind, how that 
solar wind, driven by the Sun, how it expands and basically 
defines the region of our solar system as it impacts the 
interstellar space. And so interstellar space is the space 
between solar systems, and there is a boundary that--upon 
what's called the heliopause, and understanding how our solar 
system and the solar wind expands and interacts with that 
interstellar space, that is that boundary in which, for 
example, the Voyager spacecraft you all may have seen have now 
gone beyond that and understanding how that interface operates 
and what physics occurs there is what IMAP is focused on.
    Mr. Beyer. And the heliopause is where--basically where the 
solar wind peters out?
    Dr. Spann. Basically, it peters out. It buffets up against 
the interstellar space, and that boundary is a place where 
actually very interesting physics occurs, including perhaps 
acceleration of cosmic rays and energetic particles.
    Mr. Beyer. That's where it runs into the dark matter.
    Dr. Spann. Yes, well----
    Mr. Beyer. Dr. Jacobs, in talking about all the different--
the solar flares, particle events, CMEs, et cetera, go back to 
the 1859 Carrington event, which is the biggest one, and that 
you think it's 8 minutes and 20 seconds for light to get from 
the Sun here, and it took 17 hours--17.6 hours for that coronal 
mass ejection to get here. What can we do in 8 minutes or in 17 
hours to get ready for one of these events that we observe?
    Dr. Jacobs. Well, the 8 minutes is related to the photons, 
and the 17 hours to roughly 3 to 4 days is the plasma. And so 
it's the 1- to 4-day lead time for the coronal mass ejection 
that's the real problem. And like we've been hearing from the 
other witnesses today, the big--I think the hardest problem to 
solve is understanding how to predict the occurrence of those, 
not what we currently do, which is forecast how they will 
propagate away from the Sun after the event happens. We need to 
predict when the event is going to happen on the Sun, and that 
is cutting-edge basic research.
    Mr. Beyer. So we're looking for weeks or months of warning 
rather than 17 hours? Right.
    And, Dr. Gibson, in your testimony you talked about 1967 
when space weather disrupted radar and radio communications 
that was initially interpreted by the U.S. military as a 
possible hostile act by the Soviet Union.
    Dr. Gibson. Right.
    Mr. Beyer. What are the implications for a major event--
major space weather event on our nuclear deterrent, launch on 
warning, space missile, you know, the nuclear shield?
    Dr. Gibson. Yes, I think--I mean, it's clear the military 
gets space weather, and back in 1967 it was sort of a wake-up 
call. And it's a good story. It's a story where it was because 
they had space weather, it was really, really early days but 
they had people on staff who were looking at the Sun and making 
observations and were able to say, hey, the fact that those 
radars are blocked, that's not the Soviet Union, that's the 
Sun. And it took a while for the information to get around and 
there were tense moments when there were aircraft ready to take 
off, but the information did get out and averted some 
potentially very serious repercussions.
    And we talked about the EMPs earlier. I mean, being able to 
know and recognize space weather for what it is is absolutely 
critical from the point of view of our military preparedness.
    Mr. Beyer. And quickly, do you have confidence that the 
nuclear powers have a better understanding of this now than 
they did in 1967?
    Dr. Gibson. Absolutely, definitely have a better 
understanding than then.
    Mr. Beyer. All right. Thank you. Mr. Chair, I yield back.
    Mr. Babin. Yes, sir. Thank you.
    I'd like to recognize the gentleman from Florida, Dr. Dunn.
    Mr. Dunn. Thank you very much, Mr. Chairman.
    Dr. Tobiska, you caught everybody's imagination with the 
airline trips. Let me just sort of plug that in a little bit 
more. Was that analysis of the chest x-ray at 37,000 feet, was 
that just an analysis at that altitude or does that take into 
account the attenuation of the fuselage of the aircraft?
    Dr. Tobiska. That's a great question. That is--that's--for 
North America in particular, that's kind of the average dose 
that you get if you're flying commercially, you know, at 37,000 
feet for 10 hours. But that is only from the--as we were just 
mentioning earlier, from IMAP, that's only from the galactic 
cosmic rays----
    Mr. Dunn. Right, right, so that's cosmic, not the CMEs and 
what----
    Dr. Tobiska. That's right. If there's a----
    Mr. Dunn. So I was going to ask how that's affected by 
carbon fiber aircraft fuselage now, which are coming into vogue 
with the big super----
    Dr. Tobiska. Yes. So basically, it's--it doesn't make a 
difference. The issue is is that the really energetic particles 
come in. Even if we coated the planes with lead, okay, which 
the airlines wouldn't want us to do----
    Mr. Dunn. Yes. There's a penalty for that.
    Dr. Tobiska. That's right. The more energetic particles 
would still make it through. They create a spray of lower 
energy stuff, and it's that soup that we're actually embedded 
in----
    Mr. Dunn. So that goes to the CMEs then. There's no Faraday 
cage available to us there?
    Dr. Tobiska. That's right.
    Mr. Dunn. Okay.
    Dr. Tobiska. Yes.
    Mr. Dunn. So also in your testimony you said 1990 NORAD 
lost 200 satellites. Did they lose them permanently or 
temporarily?
    Dr. Tobiska. No, but that's a good point. So they--there's 
a fence, a space surveillance fence, a radar fence that the 
objects are coming through, and if they don't come through at a 
certain time, they had to go and look for other objects. Well, 
as it turns out, 200 of them from the big density changes from 
that big geomagnetic storm caused the satellites to have their 
orbits changed such that they didn't come to the fence at the 
right time. So they had to go off looking for other objects. 
But now a new object came through. They didn't know if it was a 
missile or they didn't know if it was an old object that had 
been delayed in its orbit. So that was a big deal to lose----
    Mr. Dunn. They've certainly misplaced these 200.
    Dr. Tobiska. Yes, right, they did find them there, but it 
took a lot of work on their part.
    Mr. Dunn. They just lost track of them right?
    Dr. Tobiska. They lost track of them. Yes.
    Mr. Dunn. Thank you for that clarification. I was worried 
we were going to have to replace every single satellite.
    So what steps do we take to harden our satellites these 
days now that we know this? I guess that's a Dr. Gibson 
question maybe.
    Dr. Gibson. Practical steps, I think you need to--I would 
first answer that you need to figure out exactly how bad it 
could be, and that's this benchmarking activity. To say how bad 
is it going to be from--if it's a Carrington storm or could be 
even worse because there's the question of, you know, we've 
only got 100 or so years of experience with this, and how bad 
might it be in the future? And there's been studies, for 
example, looking at other stars, looking at records on the 
moon, in ice cores to try to get a sense of how bad the 
radiation could be, and it could even be worse than anything 
we've experienced or the Carrington storm. So that's the first 
step is to get that climatology to get that set benchmarking.
    And then in terms of the technical hardening, that's 
outside my wheelhouse. I don't know if Kent wants to----
    Dr. Spann. So I would just respond a little bit from the 
technical side, as NASA builds its spacecraft, which are 
science in providing fundamental understanding. Nevertheless, 
they have to survive in space and have to survive these storms. 
And so understanding how parts, electronic parts the sit on 
boards, electronic boards, how they respond to that 
environment, how different materials degrade over time, all of 
these things are part of really understanding our space 
environment and space----
    Mr. Dunn. You're actually launching a probe into the Sun.
    Dr. Spann. Absolutely.
    Mr. Dunn. Or right near the Sun. So what are you doing to 
harden that one?
    Dr. Spann. Oh, that is a major accomplishment. That--the 
big issue there, as you can imagine, is temperature, right? And 
so there was a significant effort of--focused on the heatshield 
that provides--it's going so close to the Sun but yet right 
behind that heatshield it's a nice warm, you know, 80 degrees 
Fahrenheit or something like that. It's amazing what they've 
done.
    So that's not--so that's a temperature thing but 
nevertheless think of the same thing in terms of radiation 
environment, how to protect those parts, the components----
    Mr. Dunn. The charged height----
    Dr. Spann. Yes.
    Mr. Dunn. --energetic charged particles----
    Dr. Spann. Right. And--
    Mr. Dunn. Can you give me a hint what you're doing on that?
    Dr. Spann. Well, I'm not a parts person, but I just know 
that they do spot-shield them with some heavier elements, lead 
and titanium and those sorts of things----
    Mr. Dunn. So you're a great time manager. You've cleverly--
we've run out of time again. I want to get the answer to that 
question so--
    Dr. Spann. Sorry about that.
    Mr. Dunn. I yield back, Mr. Chairman.
    Mr. Babin. All right. Thank you. Very, very fascinating.
    I'd like to recognize the gentleman from Florida----
    Mr. Crist. Thank you, Mr. Chairman.
    Mr. Babin. --Mr. Crist. Yes, sir.
    Mr. Crist. Thank you. And thank you to our witnesses today 
for being here. We appreciate it.
    The district that I represent is Pinellas County, Florida, 
which is a peninsula. It's surrounded on all three sides by 
water, and of course you know that Florida is a peninsula as 
well. So I understand the importance of being able to predict 
weather. It's pretty important to us in the Sunshine State. And 
the same certainly holds true for space weather. And it's 
important that we are sufficiently prepared to predict it and 
respond to it.
    And Dr. Gibson, I had a question. In your testimony you 
write that ``Our best bet for filling gaps in our scientific 
understanding of the space weather chain is through 
observations.'' What kind of new observations would be useful 
to our understanding of space weather in your view?
    Dr. Gibson. So observations that get at the problem at the 
source so can define the magnetic field and the eruption at the 
Sun because if you're going to try to get it at the Earth, you 
have to first get the input, right? And then observations that 
show how it may change between the Sun and the Earth so, for 
example, observations using coronagraphic or heliographic 
imaging as it moves from Sun to Earth, observations from other 
vantages where you could look down from the poles, for example, 
or off from the side to really characterize this.
    And then you get to the Earth. You need to get a better 
sense of our Earth space environment, constellation 
observations and the tail of the Earth's magnetic field would 
be really important for that, and then, again, distributed or 
constellation observations and ground-based observations of the 
ionosphere and the upper atmosphere.
    And I want to say that these are--emphasize again these are 
both space-based and ground-based observations. A lot of the 
observations you can do of the Sun, for example, you can do 
with ground-based telescopes. There's a trade there. The 
ground-based telescopes can get really, really big because you 
don't have to launch them, and so you can do very high-
resolution observations. The space-based observations take you 
to places, vantages, viewpoints that you just can't get to from 
the ground and also let you see wavelengths of light that you 
can't from the ground, for example.
    Mr. Crist. Thank you. And is it important that we plan our 
future observing platforms around our research needs?
    Dr. Gibson. Absolutely, and that goes for the fundamental 
research that we need before we can actually do much better in 
terms of our forecasting, and it also goes in terms of the 
applied research that we need to do to determine what the most 
useful observations are for operations.
    Mr. Crist. Thank you. And I guess to Dr. Jacobs and Dr. 
Spann, is there a backup plan if any one of our space weather 
observing systems discontinues working?
    Dr. Jacobs. Well, currently, we are single-threaded on a 
coronagraph through SOHO, which was launched in 1995, and it 
was a research-grade probe with roughly a three-year lifespan, 
so it was truly remarkable that it's still reporting data. But 
we do know that we're expecting the solar rays to start to 
degrade in their ability to provide power starting in 2020 and 
be fully out of power roughly by 2025. And we do have a plan to 
deploy a compact coronagraph. It'll be available roughly 2021 
with a deployment around 2024 to 2025.
    Mr. Crist. My next question is directed to all of the 
witnesses. In your opinions, have there been sufficient 
advances in our understanding of space weather since the Space 
Weather Action Plan was released, and if not, why not?
    Dr. Tobiska. I would just like to jump in with one initial 
comment from the commercial perspective. The--I think across 
the board all three sectors, the commercial, academic, and 
agencies really feel that the agencies taking the bull by the 
horns on that activity really gave us some good guidance.
    And I think where we're at at this point is we've 
recognized that we're all doing some part of this elephant of 
space weather so that we don't unnecessarily compete with one 
another or duplicate resources. We need to figure out a process 
by which we can--between agencies, academia, and industry, 
begin to talk to one another on a regular basis so that we 
really coordinate our efforts and don't waste our resources on 
it.
    Dr. Gibson. And I'll just add that I think we've made great 
progress but not enough, and we still don't really know what 
the problem is. We're still defining the problem. And so we've 
made progress, and we've got all these great activities and we 
have to keep the momentum going and get a better idea of what 
is needed.
    Dr. Spann. I would echo both--not that we don't have the 
problem solved, that we need more fundamental research, but 
from an observational perspective I think a place where all of 
us can play together is with some of these distributed space 
missions that we really haven't talked very much about, but 
we've talked a lot about solar imaging and trying to understand 
and predict with the Sun's going to do but then understanding 
how the ionosphere and the magnetosphere respond.
    And some of the ways that we could observe that to really 
make great progress is with these small satellite distributed 
areas. And this is new technology that really I would say 
industry and the commercial has really taken the lead on. And I 
think that, as the agencies begin to better understand how to 
use those very small satellite and those technologies, we can 
do a much better job in terms of understanding and providing 
predictive capability that can be transitioned into the 
operational world.
    Mr. Crist. Thank you, Mr. Chairman. I yield back.
    Mr. Babin. You bet. Thank you very much.
    And I'd like to recognize the gentleman from Indiana, Mr. 
Banks.
    Mr. Banks. Thank you, Mr. Chairman.
    First of all, I have a letter from Purdue University that I 
would like I would like to enter into the record.
    Mr. Babin. Without objection.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    Mr. Banks. Thank you.
    My first question is for Dr. Jacobs. I understand that NOAA 
has a number of international partnerships and that in return 
provides data back and forth. I wonder if that is true for 
space weather specifically or if there are any other countries 
that generate space weather data, and does NOAA at all rely on 
that data from other countries?
    Dr. Jacobs. So the relationship we have with the 
international MetServices is a little bit different than the 
international space agencies, so it's roughly a five to one on 
the space-based Earth-directed weather data we collect. We 
provide roughly 5 times the amount of data that we get in 
return.
    On space weather, it's a little bit different. For the most 
part, we are the sole provider of this. However, we are in 
conversations right now with the European Space Agency to 
potentially share different positions for coronagraph 
measurements at L1 and L5. Roughly speaking, if ESA is going to 
deploy at L5, then the thought is we may deploy at L1 and then 
share data. So having observations from two different vantage 
points would be very advantageous, but that's just preliminary 
discussions right now.
    Mr. Banks. Okay. Thank you.
    Dr. Tobiska, in your testimony you mentioned that space 
environment technology has been creating and sole-source 
distributing the Dst index to the United States Air Force since 
2012. Recognizing that we are in an unclassified setting today, 
can you still give us an indication of the importance of this 
index for the Air Force mission and operations planning?
    Dr. Tobiska. Absolutely. The product was developed as part 
of the Small Business Innovative Research (SBIR) program 
through an Air Force research laboratory activity back in 2010 
to 2012 or '13. We coordinated--or we worked with the USGS to 
help develop this Dst index. They have an excellent index. It's 
probably the best one in the world now at 1 minute resolution. 
That data product then goes into the geomagnetic forecast for 
Space Command as part of this whole effort to understand how 
these geomagnetic storms affect upper atmosphere density. So we 
provide operationally to them. Every few hours they get the 
update from us both for solar as well as these Dst indices.
    The one thing about the Dst index is that that particular 
index itself really helped beat down the uncertainty in 
atmosphere density because now we are able to get some time 
resolution on how these big storms are occurring and when 
they're recovering and to get a better handle on what it's 
doing to atmosphere densities.
    It's not perfect. Our forecasts to be honest with you are 
pretty bad sometimes, and that's because we simply don't have 
enough information to know exactly when things are going to 
arrive or how big they're going to be. But we do make a reduced 
time granularity product available publicly, yes.
    Mr. Banks. Okay. Along that same note, Dr. Spann, how 
important is the relationship between the Department of 
Defense's ability to mitigate space weather risk and operations 
and planning?
    Dr. Spann. Well, I think it's hugely important. Thank you 
for bringing that up. I think that the Department of Defense 
relies heavily, heavily on communications, particularly ground-
to-Earth, Earth-to-ground in very, very different scenarios. 
There are indicators that operations at times have been 
impacted by space weather or probable space weather events, and 
so they are very interested in understanding the fundamental 
processes that particularly occur in the lower--in the 
ionosphere that creates scintillation, and those types of very, 
very applied aspects are some of the areas that the Department 
of Defense is really focused on. And so, again, providing that 
fundamental information so that they can develop a better 
operational environment or tools to help the warfighter or the 
planning of whatever they're doing is I think a critical place, 
critical role that space weather plays in that.
    Mr. Banks. I appreciate the feedback. I yield back.
    Mr. Babin. Thank you very much.
    And I'd now like to recognize the gentleman from 
Pennsylvania, Mr. Lamb.
    Mr. Lamb. Thank you, Mr. Chairman.
    I'm just going to address kind of one wrap-up question to 
everybody if that's okay. It seems like the common theme 
uniting each of the issues we talked about, whether it's the 
effect on DOD, the effect on the grid, and the effect on GPS is 
your ability to accurately observe, measure, or research about 
these events. So that tells me that you're looking for more 
advanced or complicated equipment, personnel. Could you just 
kind of break down a little more concretely almost what your 
wish list is or what the needs are in that area?
    Maybe start with Dr. Gibson because when we were talking 
about cost a little bit earlier you kind of interjected at the 
end that it wasn't a simple answer like you needed one thing. 
Could you just name a few specific things?
    Dr. Gibson. Yes, I mean the issue is that it's a system, 
right? It's a system from Sun to Earth. So, for example, I'll 
start at the Earth since I've talked a lot about the Sun. There 
are interactions between the Earth's terrestrial atmosphere 
coming up against the space environment so that the regular 
terrestrial weather and space weather can interact in ways that 
are hard to predict. And so understanding that probably 
requires the kind of constellations that Jim was talking about.
    Going back to the Sun because that's my personal love is we 
have to understand what makes these things erupt in the first 
place, right? I mean, we would like to get observations and 
predictions that were more than just after it happens, after 
the horse has left the barn, right? And so to do that we have 
to understand the fundamental physical process going on at the 
Sun, and we need better solar telescopes, bigger solar 
telescopes. And then, as I've said, trying to track things from 
Sun to Earth and as it hits the magnetosphere, so it's--think 
of it as a chain, right, and think of it as there are gaps in 
our chain and we have to fill them.
    Mr. Lamb. And, Dr. Spann, could you address the smaller 
satellite point that you've touched a couple times?
    Dr. Spann. Sure. I'd love to do that. And I think that we 
are understanding better how to use these very, very small 
satellites, and we're talking about something that could fit 
in--that would be a shoebox size or maybe a couple loaves of 
bread stuck together. We are understanding how to use that 
capability, and with more frequent access to space with those 
very small satellites, they can provide in essence a swarm or a 
constellation of individual observations spread across--think 
of a grid, and in that way, just like on a grid where we kind 
of map topography or something like that, you could map 
different aspects of the low-Earth environment, geospace as we 
call it in terms of magnetic field, electric fields, particle 
populations, the temperature of those populations. All of those 
sorts of things, the densities, all the sorts of things impact 
our assets in space.
    So developing the capability to use these constellation of 
small satellites I think would go a long way in terms of 
providing a lot of the information that's needed for some of 
the models that are ingested into NOAA and into DOD. And so, 
you know, a mission that I did not mention, which is the 
Geospace Dynamic Constellation mission is exactly that. We're 
getting--that is the mission after IMAP, and so we've got this 
plan is really focused on providing the fundamental 
understanding, but it all has a role in terms of the applied 
component.
    Mr. Lamb. Thank you.
    Dr. Tobiska, could you follow up on that and just--you 
mentioned I think at the very beginning about----
    Dr. Tobiska. Yes.
    Mr. Lamb. --various businesses providing the 
instrumentation that some people talked about today. Can you 
just expand on that, please?
    Dr. Tobiska. Sure. Let's see. If--on a wish list for the 
aviation radiation side of it, if the U.S. carriers, the major 
U.S. carriers were carrying the radiation monitoring equipment 
on their aircraft much like they do the TAMDAR system or the--
you know, the--that's where the Pitot tube comes out of the 
plane and they measure the temperature pressure and humidity, 
and then that is fed back to the ground via iridium satellite 
link. That becomes part of the national tropospheric weather.
    Just like that, if we had the--that kind of system on the 
aircraft going over the North Pacific, North Atlantic routes, 
that would give us an--that would give air traffic management 
an ability to lower the fleet of aircraft by a couple thousand 
feet or send it 100 kilometers equatorward to get around major 
radiation areas. So that would be an example of a wish list.
    Mr. Lamb. Thank you, Mr. Chairman. I yield the remainder.
    Mr. Babin. Thank you.
    And I know that Dr. Jacobs may have had something to add to 
that as well. He was kind of looking askance, so I'd like to 
give you an opportunity.
    Dr. Jacobs. Thank you. So I was just--to come back to that 
question, NOAA is in charge of the operational forecasting, and 
what's critical to that is having accurate and timely 
observations. So our concern is not just to have better, more 
frequent observations from different vantage points but to make 
sure we don't have a lapse in any observing system capability.
    And also to enhance and accelerate the research side so 
whether it's NASA or the academic universities doing the 
research to enhance that effort and transition that research 
faster into operation so that we can make better use of it 
sooner would be advantageous to us.
    Mr. Babin. Okay. Thank you very much. And I think this is 
going to conclude.
    Oh, yes, I want to recognize--the gentleman from Colorado 
wants to----
    Mr. Perlmutter. Just thank you, panel. This is an excellent 
discussion. We've been talking about really from the Earth to 
the Sun and then outwards. There is one other component--and, 
Dr. Spann, you touched on it a little bit--which is the 
conductivity of the Earth in these charges.
    So the--I promised Mr. Barheim that I would mention the 
U.S. Geomagnetism Program through the USGS, which also deals 
with these geomagnetic storms and how the Earth conducts the 
energy from the Sun and the potential damages that may come 
from that.
    So just thank you to the panel, excellent discussion today.
    Mr. Babin. And I would like to echo that as well, all very 
great information that is so critical to the advancements of 
our space program and also our Department of Defense and the 
warfighting capabilities of our nation and the valuable 
information that we can impart to our allies around the world.
    So I just want to say thank you very much to all four of 
you witnesses and to the Members for their valuable questions.
    The record will remain open for two weeks for additional 
written comments and written questions from the Members.
    So with that, this hearing is adjourned.
    [Whereupon, at 12:01 p.m., the Subcommittees were 
adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions




                   Answers to Post-Hearing Questions
Responses by Dr. Neil Jacobs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Responses by Dr. Jim Spann

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by Dr. Sarah Gibson

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Responses by Dr. W. Kent Tobiska

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>
</pre></body></html>
